<html>
<title> - MARKUP OF H.R. 672, TO TERMINATE THE ELECTION ASSISTANCE COMMISSION; H.R. 1934, TO IMPROVE CERTAIN ADMINISTRATIVE OPERATIONS OF THE LIBRARY OF CONGRESS; AND A COMMITTEE RESOLUTION ON SUBCOMMITTEE MEMBERSHIP</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 MARKUP OF H.R. 672, TO TERMINATE THE ELECTION ASSISTANCE COMMISSION; 
H.R. 1934, TO IMPROVE CERTAIN ADMINISTRATIVE OPERATIONS OF THE LIBRARY 
   OF CONGRESS; AND A COMMITTEE RESOLUTION ON SUBCOMMITTEE MEMBERSHIP 

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                  Held in Washington, DC, May 25, 2011

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-578 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 













                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida

                           Professional Staff

                      Philip Kiko, Staff Director
                  Jamie Fleet, Minority Staff Director


















 MARKUP OF H.R. 672, TO TERMINATE THE ELECTION ASSISTANCE COMMISSION; 
H.R. 1934, TO IMPROVE CERTAIN ADMINISTRATIVE OPERATIONS OF THE LIBRARY 
   OF CONGRESS; AND A COMMITTEE RESOLUTION ON SUBCOMMITTEE MEMBERSHIP

                              ----------                              


                        WEDNESDAY, MAY 25, 2011

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:40 a.m., in room 
1310, Longworth House Office Building, Hon. Daniel E. Lungren 
(chairman of the committee) presiding.
    Present: Representatives Lungren, Harper, Gingrey, Schock, 
Nugent, Brady, Lofgren, and Gonzalez.
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Peter Schalestock, Deputy General Counsel; Kimani 
Little, Parliamentarian; Joe Wallace, Legislative Clerk; Yael 
Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Bob Sensenbrenner, Elections Counsel; 
Karin Moore, Elections Counsel; Jamie Fleet, Minority Staff 
Director; Kyle Anderson, Minority Press Secretary; Khalil 
Abboud, Minority Elections Staff; and Thomas Hicks, Minority 
Elections Counsel.
    The Chairman. I now call to order the Committee on House 
Administration for today's committee markup. A quorum is now 
present. We will proceed.
    In today's markup, we will consider a bill to terminate the 
Election Assistance Commission. Our Subcommittee on Elections 
has held two hearings and heard from numerous witnesses on the 
agency's remaining operations and its diminished value to those 
who it was created to serve. We have heard and found a 
compelling case, I believe, as to why the EAC has outlived its 
usefulness and should be dissolved. Since 2005, the National 
Association of Secretaries of State have passed two resolutions 
calling for the EAC's dissolution.
    We have also heard extensively from election administrators 
from around the country; we have heard their views, their 
ideas, and their suggestions. The feedback we received included 
where to relocate the few valuable functions currently 
performed by the EAC. I think these suggestions have improved 
H.R. 672 and will be offered, I believe, in a manager's 
amendment by my colleague, Mr. Harper.
    H.R. 1934, a bill to improve operations at the Library of 
Congress, allows the Library to retain the proceeds from the 
sale or disposal of surplus property for the purpose of 
purchasing similar or like property in that current or 
subsequent fiscal year. This is an authority that has been 
granted to both the U.S. Capitol Police and the Architect of 
the Capitol in recent years and has been an asset to both 
entities. This is a sensible authorization. I hope my 
colleagues will support H.R. 1934.
    And, finally, we will consider a controversial resolution 
to designate Mr. Gonzalez as the ranking member on the 
Subcommittee on Elections. Mr. Gonzalez is a hardworking----
    Mr. Brady. Could we do that first before we----
    The Chairman [continuing]. Member of this committee. And I 
look forward to passing it, even on a tough, close vote.
    I would like to thank each of my colleagues for being here 
today. I would like to recognize the ranking member, Mr. Brady, 
for his cooperation on many things and working, I think, to 
help us make this place a more efficient place so that Members 
might do their job for their constituents.
    Mr. Brady.
    [The statement of the chairman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Brady. Thank you, Mr. Chairman. I will be brief.
    I think the Election Assistance Commission has performed an 
important role in supporting the American election system. The 
EAC was designed to be primarily a clearinghouse for 
information and best practices to support our local election 
officials who serve on the front line in our voting and 
registration systems.
    It continues to serve an invaluable support role for State 
and local election officials, as well as for civil rights 
organizations, who use it as a resource. While I agree that the 
agency has fallen short of its full potential, I join with the 
voter advocacy community, disability advocates, and many local 
elected officials in calling for reform at the agency, but not 
to terminate it.
    The EAC Testing and Certification Program holds voting 
systems manufacturers accountable both in testing and 
performance in the field through the EAC Quality Monitoring 
Program. The EAC continues to work with the Department of 
Defense and local election officials to improve the voting 
process for our men and women fighting in our military and 
living and working overseas. These and other functions should 
not be transferred to the FEC, as this bill would do, since the 
FEC has consistently deadlocked on even the most basic issues.
    This legislation appears to offer more occasions for 
paralysis instead of support to the American electoral system. 
The American people deserve to know, even at times of financial 
and economic difficulty, that their ability to have their 
voices heard remains a priority. And I urge my colleagues to 
oppose this bill.
    Thank you, Mr. Chairman.
    [The statement of Mr. Brady follows:]
    The Chairman. I thank the gentleman for his comments.
    I would now call up and lay before the committee H.R. 672, 
a bill to terminate the Election Assistance Commission.
    Without objection, the bill will be considered as read and 
open to amendment at any point.
    [The bill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. But I understand that Mr. Harper, the 
chairman of the Subcommittee on Elections that sponsored the 
bill, plans to offer an amendment in the nature of a 
substitute.
    Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    I would like to offer a manager's amendment to H.R. 672.
    As the chairman noted in his opening remarks, this 
committee has listened extensively to the elections community--
--
    The Chairman. Without objection, the amendment in the 
nature of a substitute will be considered as read.
    [The amendment in the nature of a substitute follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Harper. Thank you again, Mr. Chairman.
    The Chairman. And I would now recognize the gentleman for 5 
minutes to speak in favor of the amendment.
    Mr. Harper. Thank you. I just was in such a hurry, Mr. 
Chairman.
    The Chairman. I know that.
    Mr. Harper. As the chairman noted in his opening remarks, 
this is something that we have sought input on in a great way. 
We have consulted with officials from across this country in an 
effort to do what we can to support the integrity of our 
elections more efficiently, recognizing the long-term budget 
limits we are also facing.
    The EAC initially had a 3-year mandate, but, as with most 
government programs, it found a way to maintain its existence. 
Unfortunately, it became a bloated bureaucracy that mismanaged 
taxpayer dollars and has been the subject of two discriminatory 
hiring lawsuits. Meanwhile, two of the EAC's four functions are 
essentially complete, and the others can be performed more 
efficiently without an entire agency supporting them.
    The best course we can take, as the EAC's committee of 
jurisdiction, is to dissolve the agency, end its wasteful 
spending, and transfer its remaining beneficial functions to 
another location. This manager's amendment terminates the EAC 
and transfers the EAC's Office of Voting System Testing and 
Certification to the Federal Election Commission.
    It also creates formal mechanisms for input into the 
development of the Voluntary Voting Systems Guidelines by 
adding a guidelines review board composed of State and local 
election officials and other important stakeholders. It 
maintains the existing Technical Guidelines Development 
Committee in its current form.
    These changes to the bill came after listening to officials 
and administrators throughout the country who were very 
familiar with the voting and elections process. And I am very 
thankful and appreciative for their input.
    The manager's amendment includes other changes based on 
suggestions we received. It transfers the testing and 
certification functions to the Federal Election Commission 
rather than to NIST. And it calls for two studies to look at 
the best way to provide a national voting machine testing and 
certification system that will be effective and beneficial.
    Mr. Chairman, I will close by saying that, as we sit here 
today, the Treasury Department is, in effect, using accounting 
gimmicks to delay facing the fact that we cannot cut our 
spending addiction. To sustain an agency that has done its 
assigned studies, dispersed its assigned grants, and fulfilled 
its mandate is the definition of irresponsibility.
    We haven't rushed through this process. We have held 
hearings. We can go back to hearings that we held in the 
previous Congress. We have listened to numerous experts. We 
have kept and reassigned programs that provide true value for 
election administrators.
    And now is simply the time to end the EAC and save American 
taxpayers $14 million a year. It doesn't get any easier to find 
an example of wasteful spending. If we can't do this, we might 
as well pack up and go home, because this is as obvious and 
clear as it gets.
    Mr. Chairman, thank you for the time, and I yield back.
    [The statement of Mr. Harper follows:]
    The Chairman. The gentleman yields back his time.
    Are there Members on the majority side who wish to be 
heard?
    Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    And I guess I need to start off by making an observation. 
And I understand that we have had witnesses and we have had the 
National Association, of course, of Secretaries of State. Their 
position that was taken way back in 2005, it is not a new 
position. I will say they have been very consistent, maybe 
incorrectly, but, nevertheless, very, very consistent.
    The other thing that I have pointed out was, to me, there 
was an obvious disconnect between the Secretaries of State, for 
some reason, in some States with the election officials on the 
ground. And I failed to make the right analogy. I kept saying 
the Secretaries of State, in many ways, were like the generals 
and the election officials were the troops on the ground. But 
then, on closer observation and reflection, Mr. Chairman, I 
actually came to the conclusion that that is not a good 
characterization.
    If you look at the election officials--and some of them 
have testified, and some of their comments have been made a 
part of the record--in their praise of what the Election 
Assistance Commission has done for them specifically, you will 
note that even the election official in Sacramento County in 
California probably takes care of the voting needs of a 
population greater than the Secretary of State of New 
Hampshire. I know that Jackie Callanen, the elections 
administrator in my county, has about 1.5 million to 1.7 
million people, far in excess of some of the testimony from the 
Secretary of State from, let's say, New Hampshire.
    So I think what is happening and the value of what the 
Election Assistance Commission brings to the election processes 
somehow has been reduced, diminished, and such by the 
Secretaries of State for whatever reason. But the real 
testimony, in my opinion, comes from those individuals that 
really carry out the functions of holding elections and have 
and see value in what the EAC does.
    I will say, it is addressing the point of cost. I remember 
reviewing letters from the Federal Elections Commission that 
said, ``Yeah, maybe we will be able to do this''--in essence, 
this is the way I interpreted the letter, and my colleague, the 
author of the bill, may have read it a little differently. But 
what they said is, We need more personnel, and we need more 
money. They put us on notice, You are going to have to give us 
more money. And, yeah, We think we can do it. But, again, what 
agency or department, you know, wouldn't make a representation 
that they can handle just about anything you are going to throw 
at them as long as you plus-up personnel and funding?
    The only thing--I will conclude in my statement, as far as 
my opposition to my dear colleague's--I guess it is well-
intentioned, it is just not the best thing. You know, ``off 
with the heads'' has never been a good process. And I think 
what we will be discussing later in the way of amendments may 
address some of the concerns that you rightfully have. Because 
we agree with you; things can always be done more efficiently 
and economically.
    But at this time, though, I would like to be introducing 
into the record, if I have unanimous consent--what I have, Mr. 
Chairman, is a letter from the Federation of American Women's 
Clubs Overseas, Incorporated. And they have written a letter in 
opposition.
    The problem that we have is that the letter has not 
arrived, which is kind of an irony in itself. We passed the 
MOVE Act to begin to eliminate some of the problems when it 
comes to voting, and I would hate for this same delay to 
prevent voices of thousands of overseas citizens represented by 
the Federation of American Women's Clubs Overseas not to be 
heard.
    So I will be asking unanimous consent to introduce that 
letter into the record when I am able to do that. I know this 
is prospective, but I am just saying that we know it is there--
--
    The Chairman. The gentleman has asked permission to into 
the record a letter we don't have when we get it----
    Mr. Gonzalez. Yes.
    The Chairman [continuing]. And purports to say what the 
gentleman said it says.
    Mr. Gonzalez. Absolutely. You can trust me. You can take 
that to the bank.
    The Chairman. I see. Well----
    Mr. Gonzalez. But I do have other letters that I----
    The Chairman. No. Without objection, the gentleman is 
allowed to introduce those into the record which he has and 
those which he thinks he has.
    [The letter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gonzalez. All right. I will tell you this. I am willing 
to place a wager that we have it.
    But, at this point, I do have a couple of other letters 
that I would like to place in the record, asking unanimous 
consent. But I do want to point out that this comes from the 
National Association of Latino Elected and Appointed Officials 
describing their opposition to the elimination of EAC under Mr. 
Harper's bill.
    The letter points out something which has not received 
sufficient discussion, which is EAC's extensive language 
services. For communities across the country, it would be 
ruinously expensive to try to produce election materials in the 
many languages spoken in the American melting pot, but the 
Federal nature of EAC makes translation much more efficient and 
cost-effective.
    [The letter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gonzalez. In addition, I would like to submit for the 
record letters of opposition to H.R. 672 from the Leadership 
Conference on Civil and Human Rights as well as from Demos, a 
nonpartisan public policy research and advocacy organization.
    The Chairman. Without objection, they will be entered into 
the record.
    [The letters follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gonzalez. I appreciate it.
    And I would yield back at this time.
    [The statement of Mr. Gonzalez follows:]
    The Chairman. The gentleman yields back.
    Are there other Members who wish to be heard?
    Is there anybody who has an amendment?
    Mr. Gonzalez. I think Mr. Gingrey may want to be heard.
    The Chairman. Mr. Gingrey for 5 minutes.
    Mr. Gingrey. Yeah, thank you. And, really, in support of 
the manager's amendment.
    I know my colleague from Texas, when he used the phrase, `` 
`off with the head' is never a good policy,'' I am sure he was 
referring to a long time ago in 1789 in Paris, but, certainly, 
in recent news, off with the head of the snake, I am sure a 
squadron of SEALS, United States SEALS, would say that was a 
very good policy in regard to one Osama bin Laden.
    Obviously, this is cutting off the head here. There is a 
big snake behind the head, and maybe this is a small head. But 
I really think that this is a step in the right direction in 
regard to reducing unnecessary spending. As the subcommittee 
chair and the author of the manager's amendment and author of 
the bill has pointed out, you know, a $14 million savings a 
year. It doesn't seem like much, but I think it is significant. 
And we need to take this approach step by step by step, and 
pretty soon we get the whole snake.
    And to retain $4 million worth of spending for the parts of 
the EAC and transfer it to the Federal Election Commission 
where that good work, the work that my friend from Texas is 
talking about, that many of the local election supervisors in 
areas of large States that are even larger population that they 
serve than maybe the Secretary of State of a small State. I 
think he makes a good point. But I believe that the retention 
of that part of the EAC and putting it in the right place under 
the Federal Election Commission is the right thing to do.
    So I do support the manager's amendment, and I yield back.
    [The statement of Mr. Gingrey follows:]
    The Chairman. The gentleman yields back.
    Other Members to be heard?
    Anybody have an amendment?
    The gentleman from Texas is recognized.
    Mr. Gonzalez. Thank you very much.
    And I will offer a substitute to the Harper amendment in 
the nature of a substitute, which is in the Members' packets.
    The Chairman. Without objection, the amendment to the 
amendment in the nature of a substitute will be considered as 
read.
    [The amendment follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. And I now recognize the gentleman for 5 
minutes to speak in favor of the amendment.
    Mr. Gonzalez. Thank you, Mr. Chairman.
    Over the past 5 years, during my time on this committee, we 
have spent a great deal of time looking into the EAC. When she 
was chair of the Elections Subcommittee, Ms. Lofgren worked 
very hard to improve how EAC was run and to highlight areas 
where they needed to improve.
    The result has been a series of changes and improvements, 
including the hiring of a chief financial officer who could 
help bring EAC's accounts into better shape, instituting 
monthly reviews of their funds and improving auditing 
procedures. At a hearing earlier this year, Mr. Harper 
criticized expenditures that we trust Ms. Lafferty would have 
caught but which, of course, predated and, indeed, inspired 
those changes. That kind of progress is welcome, but no one 
would deny that EAC needs to do more.
    Of course, the Commission has been hampered for much of the 
past 2 years by its shortage of commissioners, though I hope 
that we will see the two vacancies filled very soon. The fully 
staffed Commission can better exercise its authority to improve 
its operations and to fulfill its mandate.
    But some of the problems aren't EAC's fault at all. We can 
improve their operations through legislation, and that is what 
my substitute would do.
    First, it reauthorizes EAC, an action long overdue. One of 
the great ironies of the Help America Vote Act was that it had 
a 3-year authorization while allowing commissioners to serve up 
to 8 years, two 4-year terms.
    More fundamentally, my substitute would create an entirely 
new process for paying for and conducting testing of voting 
equipment. This certification is too vital to do without, as 
Mr. Harper has recognized by trying to ensure that the process 
would continue under his bill. Unfortunately, we have seen how 
hard it is for FEC to meet even its current responsibilities, 
let alone new ones, whereas EAC certification has done wonders 
for districts across the country.
    Mr. Harper has spoken to the sizable amount of its budget 
EAC spends on personnel costs. I won't go back over how those 
fixed costs are faced by every agency and how rapidly they 
would fall as a proportion of the whole were EAC's budget 
larger, but this is a real problem. It is also one that EAC has 
long recognized. They tried using GAO staff to perform some of 
those roles and are currently working with other small agencies 
on ways to reduce their administrative costs. But EAC is 
staffed primarily and appropriately with election experts.
    My substitute would call on the GAO to provide a proper 
analysis of how EAC can reduce its administrative costs, 
allowing the agency to focus on its true mission: election 
assistance.
    My substitute includes several other provisions focusing on 
ways that government can save money at all levels--Federal, 
State, and local--and ensuring that the rights of disabled 
Americans are truly protected. That is what helping America 
vote means, and that is what EAC can and should be doing.
    I would like to end with a brief summary of what a troubled 
election can look like: Phony absentee ballots were mailed out 
to confuse voters. Robocalls spread misinformation about how, 
when, and where to vote. Judicial orders prohibiting voter 
intimidation at the polls were willfully ignored. Charges of 
suppression and intimidation were leveled by and at both 
parties. Voting rights groups received 15,000 calls at their 
hotline describing problems. That election was last year.
    We need EAC in this country. States are slashing their 
election divisions' already-slender budgets, making EAC's 
resources even more valuable to our local election officials.
    Mr. Chairman, none of my colleagues on the Republican side 
of the aisle were here in 2002, as I recall, to vote for the 
Help America Vote Act. I actually voted against this act, not 
because I didn't believe that the Commission wasnecessary and 
its role would be vital, but I had a fundamental difference of opinion, 
even on the Democratic side, with a certain provision, and I voted 
against the Commission. But I was gratified it still passed, it was 
created, and I think has, under the circumstances and with the hand its 
been dealt, has actually been very, very effective if you talk to local 
officials.
    I am hoping that my substitute is, I think, the more 
measured and deliberative way of trying to improve an entity 
that can't be substituted by simply folding or being subsumed 
by the Federal Election Commission. Every Member in this 
committee deals with the Federal Election Commission, and you 
know what that means. There is no way that I believe that you 
think wholeheartedly in good faith that we can simply transfer 
the tremendous responsibilities of the EAC, which are different 
from the FEC, and assume that FEC is going to be able to do the 
job. So I would ask for your consideration and for your vote on 
my substitute.
    And I would yield back. Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    And does the gentleman, Mr. Harper, wish to respond?
    Mr. Harper. Thank you, Mr. Chairman.
    The Chairman. You are recognized for 5 minutes.
    Mr. Harper. And I certainly appreciate the attempt to 
reform EAC. I think it is just too little and too late of where 
we are.
    If you look at what we have right now, continuing the 
agency until 2016 without any real structural change is just 
enabling, in effect, the inefficiency we have seen and bad 
behavior that we have also seen and experienced.
    You know, even if we were to give the Federal Election 
Commission all of the money that EAC uses to run testing and 
certification, that is still less than 15 percent of the EAC 
operating budget. You know, of that $4 million--$18 million 
now, $4 million of that that would go, $1 million to FEC, $3 
million would go to NIST; six employees would be transferred to 
FEC to handle those responsibilities. But we have had this 
agency grow, double in size in 3 years, with no new assigned 
responsibilities. We could go through a number of the issues 
that we have dealt with.
    The fact is that elections are going to be primarily dealt 
by the local officials using the Secretaries of State in those 
respective States. The resources we have here, many of them 
certainly have not been utilized, when it has been seen here, 
too, that when EAC has had responsibilities for studies, they 
haven't always fulfilled those responsibilities.
    So this still doesn't address--your amendment doesn't 
address the fact that more than 50 percent of this agency's 
budget goes basically for overhead. And they have outlived 
their usefulness, their responsibilities. They had a 3-year 
mandate. We are now in the 9th year.
    And when you look at where we are, I think this is not an 
agency that needs to be reformed. I think we are in a situation 
where--the late President Reagan said, there is nothing closer 
on Earth to eternal life than a temporary government program. 
Well, that is where we are. If we can't eliminate the EAC, then 
we really can't eliminate anything here in Washington.
    Yield back.
    The Chairman. The gentleman yield's back.
    The gentlelady from California is recognized for 5 minutes 
to speak on the amendment.
    Ms. Lofgren. Thank you, Mr. Chairman. I won't consume 5 
minutes. I just wanted to thank my colleague from Texas for 
this amendment.
    As he mentioned, we had a series of hearings when I chaired 
the Elections Subcommittee on the EAC. And we all know that 
there were some deficiencies in its operation. I think we have 
made solid progress with the Commission. Mr. Gonzalez has 
mentioned some of the improvements, and I think the measure he 
has put forward would enhance those improvements.
    Why does this matter? We have said often here that it is 
fundamental, it is a fundamental part of our democracy that we 
have free and fair elections, that every vote be counted, that 
every American be permitted to vote. And that is what this 
commission is about. It is an important element of that 
fundamental principle. So I think it would be a mistake just to 
throw this effort out.
    I commend Mr. Gonzalez for his very useful amendment and 
congratulate him on his new position as ranking member on the 
subcommittee.
    And yield back.
    Mr. Gonzalez. Did that already pass, by the way?
    The Chairman. No, we haven't voted on that yet.
    The gentlelady yields back.
    I recognize myself for 5 minutes.
    Look, we are in unprecedented times in terms of what the 
budget concerns issue. If people think this is a difficult 
decision, you haven't seen anything yet to what we are going to 
have to consider in this committee with respect to legislative 
appropriations going down the line.
    If consolidation is not appropriate here, I don't know what 
is. The good parts of consolidation are that you take already-
existing programs, you ferret out those which don't work, and 
you put that together with lower-overhead, effective, 
functioning elements. I am unaware of any other agency, 
temporary or permanent, that has as high an overhead percentage 
of their overall budget as this. I mean, it isstaggering when 
you realize what their overhead costs, administrative costs, in the EAC 
is.
    So this is one of the simpler things to do, I would think. 
You take and you identify those functions that actually still 
have a reason to exist, and you try and find a place where they 
could fit in without expanding overhead. So you are saving 
overhead, you have tried to determine what the essential 
functions are, you try to put them in a legitimate place, and 
you try to eliminate excessive cost.
    It is not a lot of money, but it is one of things that we 
have to do, I think, in this committee with respect to our 
jurisdiction. So I would hope that we would look at it that 
way. We are not attempting in any way whatsoever, as far as I 
can see, by the gentleman from Mississippi's amendment in the 
nature of a substitute, his own amendment, trying to disregard 
the importance of the vote. But we are trying to also not 
disregard the taxpayer, and try and give them some evidence 
that when we see something outlive its usefulness we are 
willing at least to admit to that and attempt to see if there 
is anything that is still useful and fit it in somewhere else 
where we save money and still allow it to be done.
    So I yield back the balance of my time. And if there are no 
more comments, we will vote on the gentleman from Texas's 
amendment to the amendment in the nature of a substitute.
    Mr. Gonzalez. And, Mr. Chairman, I would ask for a recorded 
vote on my amendment.
    The Chairman. A recorded vote is requested, and the clerk 
will call the roll.
    Those who are in favor of the amendment will signify by 
saying, ``Aye,'' and those who are opposed will signify by 
saying, ``Nay.''
    And the clerk will call the roll.
    The Clerk. Mr. Harper.
    Mr. Harper. No.
    The Clerk. Mr. Gingrey.
    Mr. Gingrey. No.
    The Clerk. Mr. Schock.
    Mr. Schock. No.
    The Clerk. Mr. Rokita.
    [No response.]
    The Clerk. Mr. Nugent.
    Mr. Nugent. No.
    The Clerk. Mr. Brady.
    Mr. Brady. Aye.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The ayes are three, the nays are five. The gentleman's 
amendment fails.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Are there any other amendments?
    Mr. Gonzalez. Yes, Mr. Chairman. I have a perfecting 
amendment.
    The Chairman. The gentleman from Texas is recognized.
    Mr. Gonzalez. Thank you very much. I appreciate it. And 
though I regret that my substitute, which was perfect in its 
own nature, I am offering a perfecting amendment.
    The Chairman. Without objection, the amendment to the 
amendment in the nature of a substitute will be considered as 
read--or the perfecting amendment will be considered as read.
    [The amendment follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. And I recognize Mr. Gonzalez for 5 minutes to 
speak in favor of this amendment.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    I do not think that Mr. Harper's bill will do what he and 
those that will be supporting it hope that it will do. I fear 
that the result will be the disenfranchisement of many 
thousands of voters. I worry that its cost savings won't 
materialize, as FEC has to staff up to handle the new duties 
you would assign them. Other costs, I fear, would simply be 
pushed onto our already-strapped States. But I haven't 
succeeded in convincing you of this, but maybe the GAO would.
    My amendment, then, would call on the GAO to study the 
potential impact of the Harper bill and report to Congress on 
whether it would do what it is supposed to be doing. Can FEC 
fulfill these functions? Would voters be disenfranchised? Would 
there really be savings of money?
    GAO would report back on this Congress. And, if they 
confirm Mr. Harper's analysis, the EAC would be eliminated as 
he desires. But, if not, GAO, if they confirm my theories, we 
would have a chance to change our minds.
    That is what my amendment does. It wouldn't stop the 
elimination of EAC; it just gives us a second opinion, a chance 
to reconsider before we take the drastic step of eliminating an 
agency which I believe remains the most viable entity to meet 
the demands and challenges of conducting modern-day elections.
    And I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Does the gentleman from Mississippi wish to be heard?
    Mr. Harper. Yes, Mr. Chairman.
    The Chairman. The gentleman is recognized for 5 minutes.
    Mr. Harper. Thank you.
    The EAC was first established with four program areas: 
grants management, voting systems testing and certification, 
communications clearinghouse, and research. Those were the four 
areas.
    Well, the idea of a 3-year mandate was to fulfill those 
responsibilities that we had. And I think it is really a far 
stretch to say that eliminating an inept government agency is 
going to disenfranchise voters. Everybody on this panel, in 
this committee, have the desire to make sure that everybody 
that should vote, wants to vote, has the opportunity to vote. 
And I think that that is quite a stretch.
    And I don't know, if we do another study--after we have had 
reports on the condition of the EAC in the last Congress when I 
first came in and now in this Congress, it is clear that they 
cannot manage themselves, in the things that have taken place. 
If we look at--we can go back to a little over 2 years ago, and 
we find out that they have spent almost $7,000 for employee 
shirts for morale and messed that order up and there were 200-
plus shirts over-ordered. And you look at their conditions on 
the audit. They couldn't even complete the audit process. They 
have had years to work out the differences with a study with 
the Social Security Administration that hasn't been completed, 
that they keep punting on.
    So I think it is really a stretch to say that this is going 
to disenfranchise voters. I mean, this is supposed to be a 
nonpartisan agency, the EAC. And so what happens is they get 
sued for political discrimination, and we pay out a substantial 
settlement as a result of that. And, again, there is another 
issue, another incident of discrimination that is ongoing in 
this agency.
    So let's take what we need to take out of EAC, the best 
part, the essential part of EAC, and let's transfer--let's show 
that we can do something in this place that is truly trying to 
reduce the size of government and the cost of government. You 
know, we would have a hard time saying that more than 10 
percent of what this agency does would be essential. So let's 
transfer it on over. Let's move those things there. Let's do 
things to make sure that people do have the opportunity to 
vote, and let's not reward an agency that has been sued for 
political discrimination.
    With that, I yield back.
    The Chairman. The gentleman yields back.
    The gentlelady from California is recognized for 5 minutes.
    Ms. Lofgren. Mr. Chairman, I just don't think that, number 
one, everything that has been said is accurate, but, number 
two, this is not about rewarding an agency. This is about 
having a system in place that will make sure that all the 
Americans who want to vote have a chance to do that.
    And I would yield time to my colleague from Texas, Mr. 
Gonzalez.
    Mr. Gonzalez. I thank you very much, Ms. Lofgren.
    I guess in response to Mr. Harper's comments, the nature of 
the complaints and issues relative to the EAC, can anyone tell 
me if the FEC has had any similar issues? Lawsuits? How much of 
the FEC, the Federal Election Commission, as far as their 
budget, in comparison to the EAC, is there a disproportionate 
amount of money on personnel? I don't know if they spent $7,000 
on T-shirts or not. I really doubt it. Who would want to go 
around with an FEC T-shirt?
    But it really is the question. And I mean this in good 
faith. I think we are rushing to judgment. And so, all my 
perfecting amendment does is simply say, get the GAO, which is 
the gold standard. We have got to admit. Whenever we have a 
problem, we look to GAO. Even this committee, in the contested 
election of Florida 13, it really is GAO thatdetermined that 
those machines did not malfunction. And Mr. Lungren was here for that; 
Ms. Lofgren was part of that task force. And I just don't see, if we 
had that kind of faith in GAO, to determine whether this Congress was 
going to sit a Member from Florida 13, that we wouldn't have the same 
degree of faith to affirm what we are trying to do here today, and that 
is get rid of an agency.
    And, as the chairman pointed out, there is nothing wrong 
with consolidation and saving money. I think we are all for 
that. But everything is not a simple math problem. And I think 
that was brought out by certain individuals that were 
testifying in Congress recently on the budget. There are 
consequences to the cuts. So I think we have to be very wise 
where we cut, where we consolidate. What is the consequence to 
us? What is the consequence to elections? To the rights of 
citizens in this country?
    When I say that individuals are going to be 
disenfranchised, I know you may doubt me, but I am very sincere 
about that. Because I know how efficient elections have been 
held with the assistance of the EAC in my own jurisdiction, in 
District 20. I know what it means there. Now, maybe that 
doesn't translate to everyone's districts, but I would venture 
to guess a majority of the districts are better today for the 
work of the EAC.
    All I am asking is--it will be eliminated. If GAO comes 
back and says, ``Mr. Harper, you and everybody that is on your 
side, you are absolutely right; FEC can do it, they can do it 
cheaper, they can be just as effective, and there is no need to 
have it''--and I always believed that the 3 years really was. 
We were going to revisit it, which is what we are doing now, 
sort of a sunset provision. But I never anticipated that you 
just would basically do away with the agency without conducting 
something that would be in-depth. I don't think that we have 
conducted that.
    And it is not that we have provided you with a lot of 
information either, to be honest with you. We don't have the 
resources. Now, Members of Congress may spend 60 percent or 
more on personnel, and we still don't have enough to meet all 
the needs of our constituents. So sometimes you can look at 
budgets and draw certain conclusions. But we have to see, what 
is the value for that dollar? Can they do a better job? We are 
saying yes. All I am saying is, can we slow down the process?
    If you are right, it will be eliminated. And if GAO comes 
and tells us, ``Hey, guys, you got it wrong,'' guess what? We 
are going to have to look at it. That is all that my perfecting 
amendment does.
    And I would yield the time back to Ms. Lofgren.
    Ms. Lofgren. And I would yield back.
    The Chairman. The gentlelady yields back.
    So the question will be on the gentleman's amendment to ask 
the GAO to give the A-okay to the FEC or the EAC.
    All those in favor, say, ``Aye.''
    Those opposed, ``No.''
    The chair believes that the noes have it. The noes have it.
    Does the gentleman ask for a recorded vote?
    Mr. Gonzalez. A recorded vote is requested.
    The Chairman. A recorded vote is requested. Those in favor 
will reply by saying, ``Aye''; those opposed, ``Nay.''
    And the clerk will call the roll.
    The Clerk. Mr. Harper.
    Mr. Harper. Nay.
    The Clerk. Mr. Gingrey.
    Mr. Gingrey. Nay.
    The Clerk. Mr. Schock.
    Mr. Schock. No.
    The Clerk. Mr. Rokita.
    [No response.]
    The Clerk. Mr. Nugent.
    Mr. Nugent. No.
    The Clerk. Mr. Brady.
    Mr. Brady. Aye.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. Nay.
    According to the clerk's roll, there are three ayes and 
five nays, and the amendment fails.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Are there any other amendments?
    If not, without objection, the previous question is ordered 
on the amendment in the nature of a substitute.
    All those in favor, signify by saying, ``Aye.''
    All opposed, signify by saying, ``Nay.''
    In the opinion of the chair, the ayes have it. The ayes 
have it, and the amendment in the nature of a substitute is 
agreed to.
    Now I move that the----
    Mr. Brady. Mr. Chairman.
    The Chairman. Yes?
    Mr. Brady. Mr. Chairman, I would like to announce that the 
minority will request 2 additional days to provide by clause 2, 
rule XI of House rules to file additional views.
    The Chairman. Without objection.
    Mr. Brady. Thank you.
    The Chairman. Now I move the committee report H.R. 672 
favorably to the House with an amendment.
    The question is on the motion.
    All those in favor of the motion, signify by saying, 
``Aye.''
    All those opposed, ``Nay.''
    In the opinion of the chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Pursuant to clause 2 of rule XI, Members are entitled to 2 
additional calendar days to file such views in writing and as 
signed by the Member with the clerk of the committee, if any 
Member indicates an intention to file such views.
    I ask unanimous consent that committee staff be authorized 
to make any necessary technical or conforming changes to the 
measure the committee has just considered. And, without 
objection, it is ordered.
    Now we will move to this one, H.R. 1934. I would like to 
call up and lay before the committee H.R. 1934, to improve 
certain administrative operations at the Library of Congress. 
The bill will be considered as read and open for amendment at 
any point.
    [The bill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. All Members have copies of this. Does any 
Member wish to be heard on this bill?
    Mr. Brady. Mr. Chairman.
    The Chairman. The ranking member is recognized.
    Mr. Brady. Mr. Chairman, this bill would authorize the 
Library of Congress to dispose of surplus or obsolete 
properties of the Library through interagency transfers, 
trades, sales, and other appropriate methods.
    In the 111th Congress, our committee marked up H.R. 5681, 
which provided for this authority and others. That bill passed 
the House but unfortunately stalled in the Senate in the final 
days of the session and did not become law.
    This new, simplified bill omits two of these provisions 
that were passed last year and retains bipartisan support. It 
would provide a useful funding tool for the Library of 
Congress, and I urge an ``aye'' vote.
    The Chairman. The gentleman yields back.
    Anybody else wish to be heard?
    If not, I will move that the committee report H.R. 1934 
favorably to the House.
    The question is on the motion.
    All those in favor of the motion, signify by saying, 
``Aye.''
    All those opposed, signify by saying, ``No.''
    In the opinion of the chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Does any Member wish to file supplemental minority 
additional views for inclusion in the committee report?
    All right.
    I ask unanimous consent the committee staff be authorized 
to make any necessary technical or conforming changes to the 
measure that the committee has just considered. Without 
objection, so ordered.
    Now for the controversial item on the agenda, consideration 
of a committee resolution to adjust the Democratic membership 
on the Subcommittee of Elections.
    I now recognize the ranking member to offer the resolution.
    Mr. Brady. Mr. Chairman, I call up the committee 
resolution, which is in the Members' packet, and ask unanimous 
consent that the committee resolution be considered as read.
    The Chairman. Without objection, the resolution will be 
considered as read and open to amendment at any point.
    [The resolution follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Does any Member wish to be heard on the 
resolution?
    Mr. Gonzalez. I seek recognition.
    The Chairman. The gentleman is recognized.
    Mr. Gonzalez. The only request is that we have a secret 
vote.
    The Chairman. The gentleman's request is denied.
    All those in favor of agreeing to the committee resolution, 
say, ``Aye.''
    All opposed, say, ``No.''
    In the opinion of the chair, the ayes have it. The ayes 
have it, and Committee Resolution 112-8 is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    And we have concluded our markup today. Thank you.
    [Whereupon, at 11:26 a.m., the committee was adjourned.]

</pre></body></html>
